UNITED STATES OF AMERICA

Federal Trade Commission
WASHINGTON, D.C. 20580

Craig Tregillus
Division of Marketing Practices
Phone: (202) 326-2970
Email: ctregillus@ftc.gov

June 16, 2016
T. Scott Gilligan, Esq.
General Counsel
National Funeral Directors Association
3734 Eastern Avenue
Cincinnati, OH 45226
Dear Mr. Gilligan:
You have asked for a “clarification” of the applicability of staff opinion 15-1 to
situations where there is “no claim that the consumer had inquired about the offering of
caskets or containers.” That opinion stated staff’s view that a funeral provider violates the
Funeral Rule if its personnel place a consumer in a casket display room to wait to speak to a
funeral director without first showing the consumer a Casket Price List (“CPL”).1
The Funeral Rule requires a funeral provider to show “people who inquire in person
about the offerings or prices of caskets or alternative containers” a CPL “upon beginning
discussion of, but in any event before showing caskets.”2 As the Funeral Rule Compliance
Guide has stated for years, this means that “[c]onsumers must be able to look at the price list
before discussing their options or seeing the actual caskets.”3 This requirement is based on
evidence in the rulemaking record that less expensive caskets “often are not shown” when
caskets are displayed, and is designed “to ensure that consumers have a bona fide
opportunity to purchase low-cost caskets . . . if they so desire.”4
Even now, casket display rooms do not always include “all caskets and alternative
containers offered which do not require special ordering.”5 They may display only a limited
selection. To ensure that consumers are aware that low-cost caskets that are not on display

1

Staff Opinion to T. Scott Gilligan (June 29, 2015) (emphasis added), available at
https://www.ftc.gov/system/files/documents/advisory_opinions/opinion-15-1/opinion_151.pdf.

2

16 C.F.R. § 453.2(b)(2)(i). The same requirements also apply to the Outer Burial Container
Price List (“OBCPL”). 16 C.F.R. § 453.2(b)(3)(i).

3

Complying with the Funeral Rule (April 2015) (“Compliance Guide”) at 13. The
Compliance Guide makes the same statement about the OBCPL. Compliance Guide at 14.

4

Statement of Basis and Purpose, 47 Fed. Reg. 42260, 42290 & n. 317 (Sept. 24, 1982).

5

16 C.F.R. § 453.2(b)(2)(i).

T. Scott Gilligan, Esq.
Page 2 of 2
are available, the Rule insists that funeral providers show the CPL to consumers “in any event
before showing caskets.”
Allowing providers to escort prospective customers to a casket display room to wait
for a funeral director who could respond to an inquiry, without first showing them a CPL,
would be to endorse a simple expedient for evading this core Rule requirement. Thus, we
cannot accept your argument that funeral providers have no obligation to show consumers a
CPL until the consumer “inquire[s] in person” about caskets or their prices.
Your request expresses concern about the impact of opinion 15-1 on certain marketing
venues for funeral goods and services, including storefront facilities in strip malls, shopping
mall stores, and mall carts and kiosks. In those venues, providers may choose to show
selected caskets and vaults, or pictures or models of them, in locations where consumers
cannot avoid viewing them immediately upon entering the store or approaching the display.
Because the casket displays in these venues are often limited by space constraints to a small
number of selected caskets, the rule’s requirement that a CPL be provided to inform
consumers about the availability of lower-cost caskets that are not on display assumes
increasing importance.
Given the unique circumstances of the venues at issue, and in the interest of enhancing
competition and innovation, staff will exercise its enforcement discretion not to take action
against providers of funeral goods and services operating out of strip mall storefronts and
shopping mall stores, carts, or kiosks, that show caskets or pictures or models of them, if they
display and make available copies of their CPL clearly and conspicuously at prominent
locations in such venues. The CPL display must be located immediately inside each store
entry, or on all sides of a cart or kiosk display, and must include clear and conspicuous
signage inviting consumers to take a readily available copy.6
Please be advised that the views expressed in this letter are those of the FTC staff.
They have not been reviewed, approved, or adopted by the Commission, and they are not
binding upon the Commission. However, they do reflect the opinions of those staff
members charged with enforcement of the Funeral Rule. Staff Funeral Rule opinions are
now routinely posted on the FTC website currently located at: Advisory Opinions | Federal
Trade Commission.
Respectfully yours,
/s/
Craig Tregillus
Funeral Rule Coordinator

6

Staff also will exercise its enforcement discretion not to take action where vaults or grave
liners, or pictures or models of them, are on display in these facilities, if the same
requirements are met for posting and providing copies of the OBCPL.

